           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ADMINISTRATIVE COSTS
          CLAIMED BY THE
       NEW YORK DIVISION OF
    DISABILITY DETERMINATIONS

    June 2007     A-02-07-17046




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 11, 2007                                                          Refer To:

To:        Beatrice M. Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   Administrative Costs Claimed by the New York Division of Disability Determinations
           (A-02-07-17046)


           OBJECTIVE

           For our audit of Fiscal Year (FY) 2004 and 2005 administrative costs claimed by the
           New York Division of Disability Determinations (DDD), our objectives were to
           •     evaluate the DDD’s internal controls over the accounting and reporting of
                 administrative costs,

           •     determine whether costs claimed by the DDD were allowable and funds were
                 properly drawn, and
           •     assess limited areas of the general security controls environment.

           A review of the indirect cost was not part of this review. It will be completed at a later
           date.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
                                   1
           to Federal regulations. Each DDS is responsible for determining claimants’ disabilities
           and ensuring adequate evidence is available to support its determinations. To make
           proper disability determinations, each DDS is authorized to purchase consultative
           medical examinations and medical evidence of record from the claimants’ physicians or
           other treating sources. SSA pays the DDS for 100 percent of allowable expenditures
           using a State Agency Report of Obligations for SSA Disability Programs
           (Form SSA-4513). (For additional background information, see Appendix B.)

           1
               20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Beatrice M. Disman


RESULTS OF REVIEW
The New York DDD had effective controls over the accounting and reporting of
administrative costs. The costs claimed by the DDD on Forms SSA-4513 for FYs 2004
and 2005 – totaling $286,218,585 – were allowable and funds were properly drawn.
However, we found the general security control environment could be improved. The
improvements will help ensure the security of sensitive SSA data stored and processed
at the site.

GENERAL SECURITY CONTROLS

Overall Security Plan

According to SSA’s Program Operations Manual System (POMS), 2 each DDS must
establish and maintain a written DDS security plan. The DDD did not possess an
approved overall security plan at the time of our review. The security plan was drafted
and awaiting SSA approval before we began our review.

The DDD provided us its Business Continuity Plans for each of the four DDD office
locations. In the event of a disruption to any SSA system, a Business Continuity Plan
can be activated and conducted in tandem with the security plan to ensure the recovery
of the affected functions. However, the Business Continuity Plans did not cover all of
                                                     3
the eight required parts of an overall security plan. Since our review, the DDD has
completed an overall security plan. The plan was approved by SSA regional staff.

Other Security Issues

We found a few physical security-related issues that needed to be addressed to help
ensure SSA data stored and processed at the DDD were secure. The DDD failed to
                                                                     4
meet certain standards required by SSA physical security guidance. The conditions
posed the risk of unauthorized access to sensitive SSA information and systems and
the interruption of service if the systems were compromised. The DDD staff stated that
the DDD was denied the funding it requested to correct these conditions because of a
lack of resources. We discussed our findings with DDD officials and they noted in their
response to our draft report that they look forward to working with SSA to rectify the
conditions in the near future.



2
    POMS, Section DI 39566.120 B., DDS Security Plan.
3
  The eight required parts of the security plan are DDS Security Description; DDS Systems
Interconnection Access Security Plan; Systems Security Awareness and Training Plan; Annual Systems
Review/Recertification Plan; Violations Reports and Resolution Plan; Continuity of Operations Plan;
Disaster Recovery Plan; and Risk Assessment. They are found in POMS, Section DI 39566.120 C., DDS
Security Plan.
4
    POMS, Section DI 39566.010 B.1.H., DDS Physical Security.
Page 3 – Beatrice M. Disman


CONCLUSION AND RECOMMENDATIONS
While the DDD’s internal controls over the accounting and reporting of administrative
costs were effective, the general physical security controls can be improved. In our
draft report, we made two specific recommendations on how to improve the physical
security control environment. We omitted the specific recommendations in the final
report to prevent compromising DDD security.

AGENCY COMMENTS
SSA’s New York Regional Commissioner and New York State’s Commissioner of the
Office of Temporary and Disability Assistance agreed with our comments. Please see
Appendix D for the full text of SSA’s comments.




                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A - Acronyms
APPENDIX B - Background, Scope, and Methodology
APPENDIX C - Schedule of Total Costs Reported on Forms SSA-4513-State Agency
             Reports of Obligations for Social Security Administration Disability
             Programs

APPENDIX D - Agency Comments

APPENDIX E - OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDD           Division of Disability Determinations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
IDS           Intrusion Detection System
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                             Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), 1 provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 2 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, 3 provides benefits to financially needy individuals
who are aged, blind, or disabled. 4

The Social Security Administration (SSA) is responsible for implementing policies for
the development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
                                      5
accordance with Federal regulations. In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments System to pay
for program expenditures. Funds drawn down must comply with Federal regulations 6
and intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 7

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
1
    Social Security Amendments of 1954, Pub. L. No. 83-761, 68 Stat. 1089.
2
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
3
    Social Security Amendments of 1972, Pub. L. No. 92-603, 86 Stat. 1465.
4
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
5
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
6
    31 C.F.R. § 205.1 et seq.
7
  Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058
(amending 31 U.S.C. §§ 6501 and 6503).


                                                    B-1
Indian Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) to account for program disbursements and unliquidated obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs the New York
Division of Disability Determinations (DDD) reported on its Forms SSA-4513 for
FYs 2004 and 2005. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under OMB
Circular A-87, and appropriate, as defined by SSA’s Program Operations Manual
System.

We also:
•   Reviewed applicable Federal laws, regulations and pertinent parts of Program
    Operations Manual System, DI 39500, DDS Fiscal and Administrative Management,
    and other instructions pertaining to administrative costs incurred by DDD and draw
    down of SSA funds.
•   Interviewed staff at the DDD and SSA’s Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by DDD on Forms SSA-4513 for FYs 2004 and 2005.
•   Examined the administrative expenditures (personnel, medical service, and all other
    non-personnel costs) incurred and claimed by DDD for FYs 2004 and 2005 on
    Forms SSA-4513.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Reviewed the State of New York Single Audit reports issued in 2004 and 2005.
•   Conducted limited general control testing—which encompassed reviewing the
    physical access security within the DDD.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing
on selected data elements in the electronic data files.

We performed our audit at the DDD in Albany and New York, New York, and the Office
of Audit in New York, New York, from September through December 2006.
We conducted our audit in accordance with generally accepted government auditing
standards.




                                             B-2
METHODOLOGY

Our sampling methodology encompassed three of the four general areas of costs as
reported on Forms SSA-4513: (1) personnel, (2) medical, and (3) all other
non-personnel costs. Indirect cost was not part of this audit and will be reviewed at a
later date. We also conducted physical security reviews at both the Albany and New
York (Manhattan) locations. We obtained computerized data from the DDD for
FYs 2004 and 2005 for use in statistical sampling. Also, we reviewed general security
controls the DDD had in place.

Personnel Costs

We sampled 100 employee salary items from 1 randomly selected pay period in
FY 2005. The sample of 100 employees consisted of 50 salaried employees directly
related to the standard operations of the DDD and 50 medical doctors. We tested
regular and overtime payroll and hours for each individual selected. We verified that
approved time records were maintained and supported the hours worked. We tested
payroll records to ensure the DDD correctly paid employees and adequately
documented these payments. In addition, we ensured the doctors had valid medical
licenses.

We reviewed all four medical consultants on contract for one randomly selected pay
period in FY 2005. These medical consultants were individuals who were contracted
out as speech pathologists through an outside vendor. We tested whether the medical
consultants were paid in accordance with the approved contract. We also ensured that
they had valid licenses to perform their duties.

Medical Costs

We sampled 100 medical evidence of records and consultative examination records
(50 items from each FY) using a proportional random sample. We determined whether
sampled costs were properly reimbursed.

Indirect Costs

Indirect cost was not part of our review. However, we did analyze computer purchases
made by the DDD of 708 21-inch monitors. The results of this review were made
available in a separate memorandum issued on January 12, 2007.




                                          B-3
All Other Non-Personnel Costs

We stratified all other non-personnel costs into nine categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Purchases and Rental, (5) Communications, (6) Applicant Travel,
(7) DDS Travel, (8) Supplies, and (9) Miscellaneous. We selected a stratified random
sample of 50 items from each FY based on the percentage of costs in each category to
total costs.

General Security Controls

We conducted limited general security control testing. Specifically we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls the DDS had in place were
satisfactory.




                                          B-4
                                                                Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs

              New York Division of Disability Determinations

                  FISCAL YEARS (FY) 2004 and 2005 COMBINED
                                                 UNLIQUIDATED      TOTAL
 REPORTING ITEMS        DISBURSEMENTS             OBLIGATIONS   OBLIGATIONS
Personnel                 182,155,822               141,603     182,297,425
Medical                    56,738,359               530,137      57,268,496
Indirect *                 15,267,533            12,296,274      27,563,807
All Other                  32,056,871              -757,520      31,299,351
TOTAL                     286,218,585            12,210,494     298,429,079

                                         FY 2004
                                                 UNLIQUIDATED       TOTAL
 REPORTING ITEMS        DISBURSEMENTS            OBLIGATIONS    OBLIGATIONS
Personnel                  92,425,417                21,399      92,446,816
Medical                    27,301,404                30,066      27,331,470
Indirect *                  8,904,203             4,778,282      13,682,485
All Other                  16,335,423            -1,381,326      14,954,097
TOTAL                     144,966,447             3,448,421     148,414,868
                                         FY 2005
                                                 UNLIQUIDATED       TOTAL
 REPORTING ITEMS        DISBURSEMENTS            OBLIGATIONS    OBLIGATIONS
Personnel                  89,730,405               120,204      89,850,609
Medical                    29,436,955               500,071      29,937,026
Indirect *                  6,363,330             7,517,992      13,881,322
All Other                  15,721,448               623,806      16,345,254
TOTAL                     141,252,138             8,762,073     150,014,211

* We did not review indirect costs as part of this audit.
                                                                             Appendix D

Agency Comments




                               SOCIAL SECURITY

MEMORANDUM                                                               Refer To: S2D2G5

Date:      May 11, 2007

To:        Inspector General

From:      Regional Commissioner
           New York

Subject:   Administrative Costs Claimed by the New York Division of Disability Determinations
           (A-02-07-17046) - REPLY


I appreciate the opportunity to review the attached draft report. I am pleased that the New York
(NY) Division of Disability Determinations (DDD) was found to have effective internal controls
over the accounting and reporting of administrative costs, that all disbursements charged to the
Social Security Administration were allowable and properly allocated and that funds were
properly drawn for fiscal years (FYs) 2004 and 2005.

The two recommendations outlined in the draft report are reasonable and will assist us in further
improving the security and safety controls that are already in place.

If members of your staff have any questions concerning this correspondence, they may be
directed to Gene Purk, (212) 264-7283 in the Center for Disability.




                                                                   /s/
                                                                Beatrice M. Disman
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

   Abraham Pierre, Auditor

   Stephen L. Liebman, Senior Auditor

   James Kim, Program Analyst


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-02-07-17046.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
